©Strict of Columbia
Court of Sppeafsi
rp

L

3

No. 19-CV-69

DEC 3 2020

MINDY HILL,

DISTRICT OF COLUMBIA
COURT OF APPEALS

Appellant,
v.

CAB3678-17

GOOGLE, LLC, et al.,
Appellees.
BEFORE:

Blackbume-Rigsby, Chief Judge; Glickman, * Thompson, * Beckwith,
Easterly, McLeese, and Deahl, Associate Judges; Nebeker, * Senior
Judge.
ORDER

On consideration of appellant’s petition for rehearing or rehearing en banc,
and it appearing that no judge of this court has called for a vote on the petition for
rehearing en banc, it is
ORDERED by the merits division* that the petition for rehearing is denied.
It is
FURTHER ORDERED that the petition for rehearing en banc is denied.

PER CURIAM

Copies emailed to:
Honorable Anthony C. Epstein
Director, Civil Division

7

"S-V-J-L"1 r'-J

'ii-;

DISTRICT OF COLUMBIA COURT OF APPEALS
No. 19-CV-69

ip

Mindy Hill. Appellant,

Li I
OCT 27 2020

v.
Google, LLC, et al. Appellees.

DISTRICT OF COLUMBIA
COURT OF APPEALS

Appeal from the Superior Court
of the District of Columbia
(CAB-3678-17)
(Hon. Anthony C. Epstein, Trial Judge)
(Submitted September 17, 2020

Decided October 27, 2020)

Before Glickman and Thompson, Associate Judges, and Nebeker, Senior
Judge.
MEMORANDUM OPINION AND JUDGMENT
Per Curiam: Appellant, Mindy Hill, initiated a civil action against Google,
LLC and YouTube, LLC alleging negligence and defamation arising from her use
of an automated closed-captioning function available for videos uploaded to
YouTube. After appellant acknowledged that she voluntarily signed the YouTube
Terms of Service, the trial court issued a final order finding those terms
enforceable and granting appellees’ limited motion for summary judgment. For
the reasons detailed below, we affirm.
I.
Appellant uploaded a video to YouTube in December 2016. In December
2016 she filed a complaint against Google, LLC and YouTube, LLC’s holding
company, Alphabet, Inc., seeking damages for defamation. After the initial claim
was dismissed, appellant filed anew against Google, LLC and YouTube, LLC on
May 26, 2017. Her amended complaint asserted liability based on negligence and
defamation arising from YouTube’s automated closed-captioning function that
transcribed her spoken words, “What’s up DC this is your girl Mindy Jo with the

2
DC Voice dot com” as. “What’s up DC bitch girl maybe gel with.” Appellees
moved to dismiss on multiple grounds, one of which being that appellant’s claims
were barred by the YouTube Terms of Service. Those terms provide that YouTube
disclaims any express or implied warranties for its sendees and is not liable for any
damages resulting from errors, mistakes, or inaccuracies of content based on any
legal theory, including tort.
After the trial court failed to issue a written order on these grounds for
dismissal, appellees filed a limited motion for summary judgment focusing on the
contractual enforceability of the YouTube Terms of Service. Based on facts
asserted by appellees that appellant failed to dispute, the trial court found the
contractual provisions enforceable because appellant had been free to accept or
decline them when she signed up for YouTube and again when she enrolled in
YouTube’s Partner Program. Furthermore, it found that these terms were not
outrageously unfair since it is not unreasonable for appellees to protect themselves
from liability for inadvertent or isolated transcription errors like the one at issue.
On appeal, appellant argues that the trial court erred because there was
sufficient evidence to find appellees liable for defamation, libel, and negligence.
She also argues that summary judgment was improperly granted because
appellees’ names on the docket were changed from Google, Inc. and YouTube,
Inc. to Google, LLC and YouTube, LLC, counsel for appellees did not appear in
court on a given date, and there was allegedly collusion between appellees and the
government of the District of Columbia to interfere with the lawsuit. Because
appellant raises these last claims for the first time on appeal, they are waived.
Hollins v. Federal Nail Mortg. Ass’n, 760 A.2d 563, 572 (D.C. 2000)
(“Ordinarily, arguments not made in the trial court are deemed waived on
appeal.”). Therefore, our analysis will be limited to the first issue raised.

3

II.
“Whether summary judgment was properly granted is a question of law, and
we review de novo a decision granting such relief.” Guilford Tramp. Indus., Inc.
v. Wilner, 760 A.2d 580, 591 (D.C. 2000) (brackets omitted). “In order to be
entitled to summary judgment[,j the moving party must demonstrate that there is
no genuine issue of material fact and that it is entitled to judgment as a matter of
law.” Id. at 592 (brackets omitted).
III.
An adhesion contract is a “standard-form contract prepared by one party, to
be signed by another party in a weaker position, usufally] a consumer, who adheres
to the contract with little choice about the terms.” Andrew v. American Imp. Ctr.,
110 A.3d 626, 633 n.8 (D.C. 2015) (citing ADHESION CONTRACT, Black’s
Law Dictionary (9th ed. 2009)). We consider the YouTube Terms of Service to be
an adhesion contract because they are standard for all consumers, completely
determined by YouTube, and offered to consumers like appellant on a take-it-orleave-it basis. As such, we review them for unconscionability. Riggs Natl Bank of
Washington, D.C. v. Distiict of Columbia, 581 A.2d 1229, 1251 (D.C. 1990)
(“Such a contract may be one of adhesion, and is therefore subject to judicial
scrutiny for unconscionability.”).
A “contract may be unconscionable either because of the manner in which it
was made [i.e., procedural unconscionability] or because of the substantive terms
of the contract [i.e., substantive unconscionability] or, more frequently, because of
a combination of both.” Urban Invs., Inc. v. Branham, 464 A.2d 93, 99 (D.C.
1983). “Usually, the party seeking to avoid the contract must prove both elements:
an absence of meaningful choice on the part of one of the parties together with
contract terms which are unreasonably favorable to the other party.” Id.
(quotation marks omitted). “[T]he party seeking to avoid the contract will have to
show that the terms are so extreme as to appear unconscionable according to the
mores and business practices of the time and place.” Id. at 100 (quotation marks
omitted).
“Here, there was no procedural unconscionability where the conditions for
use of YouTube’s sendee were not obscured or hidden, Plaintiffs had a clear
opportunity to understand the terms, and they did not lack a meaningful choice.”

4
Song fi, Inc. v. Google Inc., 72 F.Supp.3d 53, 63 (D.C. Cir. 2014). Likewise,
appellant in this case had the same opportunity to review the same unobscured
language before agreeing to it. Furthermore, it is apparently common practice for
companies such as Google or YouTube to include broad liability disclaimers when
offering their online services.1 And appellant has not made a showing sufficient to
overcome summary judgment that such disclaimers are so extreme as to appear
unconscionable.
Therefore, we do not find the disclaimer of liability for
inadvertent mistakes occurring in the use of its free video uploading platform so
extreme or out of line with today’s “mores and business practices” for online
platforms as to be substantively unconscionable.
Therefore, we affirm the decision below because, reviewing the grant of
summary judgment de novo, we conclude that there is no genuine issue of material
fact. The YouTube Terms of Service are enforceable, and as such, they bar
appellant’s claim for damages arising from a transcription error when using the
closed-captioning function on YouTube.

Affirmed.

1
“Judicial notice may be taken at any time, including on appeal.”
Christopher v. Aguigui, 841 A.2d 310, 311 n.2 (D.C. 2003). “A judicially noticed
fact must be one not subject to reasonable dispute in that it is either (1) generally
known within the territorial jurisdiction of the trial court or (2) capable of accurate
and ready determination by resort to sources whose accuracy cannot reasonably be
questioned.” Id. (citing Fed. R. Evid. 201(b)). That disclaiming errors is common
practice for online video platforms may accurately and readily be determined by
looking at comparable sendees. See, e.g.. Tik Tok Terms of Sendee. Section 9 Exclusion of Warranties, https ://www.tiktok.com/lega1/terms-of-iise?lang=en
https://pemia.cc/JEG8-QEVC (“IN PARTICULAR WE DO NOT REPRESENT
OR WARRANT TO YOU THAT . . . YOUR USE OF THE SERVICES WILL
BE . . . FREE FROM ERROR.”): Twitch Terms of Sendee, Section 15 - Disputes,
https ://www. twitch, tv/p/le gal/terms -of-service/# 15 -disputes
https://pemia.cc/RE5A-C9HT (“TWITCH DOES NOT REPRESENT OR
WARRANT THAT THE CONTENT OR MATERIALS ON THE TWITCH
SERVICES ARE . . . ERROR-FREE.”): and Vimeo Terms of Sendee, Section 9 Disclaimers, https://vimeo.com/terms#disclaimers https://perma.cc/88DY-D92X
(“. • . Vimeo makes no representations or warranties . . . [t]hat our Sendees . . . will
be . . . error-free . . . .”).

5

ENTERED BY DIRECTION OF THE COURT:
•f>=i

j

ft %

a.

TO A. CASTILLO
Clirk of the Court

Copies to:
Honorable Anthony C. Epstein
Director, Civil Division

Copies e-served to:
Mindy Hill
Roy L. Austin, Jr.

S'

SUPERIOR COURT OF THE DISTRICT OF COLUMBIA
CIVIL DIVISION

r
i!

MINDY HILL

!:

v.

Case No. 2017 CA 003678 B
1!

GOOGLE LLC., et al.
i
JUDGMENT

E
i

For the reasons explained in the order dated January 16,2019, the Court enters judgment
against plaintiff Mindy Hill and in favor of defendants Google LLC and YouTube, LLC.

Anthony C. Epstein
Judge
Date: January 16,2019
Copies to:
Christopher G. Waldron
Counsel for Plaintiff
Roy L. Austin, Jr.
Jack Mellyn
Kristin J. Sourbeer
Counsel for Defendants

l

SUPERIOR COURT OF THE DISTRICT OF COLUMBIA
CIVIL DIVISION
MINDY HILL
v.

Case No. 2017 CA 003678 B

GOOGLE LLC, et al.
ORDER
The Court grants the original summary judgment motion of defendants Google LLC
(“Google”) and YouTube, LLC (“YouTube”). The Court is entering a separate judgment in
favor of Defendants.

I.

BACKGROUND
On December 8, 2016, plaintiff Mindy Hill uploaded a video to YouTube. She used an

automated video closed-captioning service provided by YouTube, and this service corrupted her
intended message.
On December 20, 2016, Ms. Hill, then representing herself, sued Google’s holding
company for defamation and tortious interference with business expectations. On May 26,2017,
the Court dismissed the case because the holding company was not a proper defendant.
On the same day, Ms. Hill filed a new complaint against Defendants. On October 6,
2017, she filed an amended complaint for negligence and defamation. She alleges that her
opening statement “Whet’s up DC, this is your girl Mindy Jo with the DC Voice dot com” was
mistakenly translated as “What’s up DC bitch girl maybe gel with.”
On July 17,2017, Defendants filed a motion to dismiss and a request for judicial notice
of documents attached to a declaration of Katherine Mansfield (“Mansfield Declaration”).
On June 2, 2018, the Court issued a written order denying Defendants’ motion to dismiss,
ruling that (1) Ms. Hill’s factual allegations support a plausible inference that Defendants
1

negligently breached a duty to her and defamed her and (2) the forum selection clause in the
YouTube Terms of Service (“Terms of Service”) requiring any user to bring suit in California is
not enforceable. The Court did not address Defendants’ argument that Ms. Hill’s claim is barred
by the provision in the Terms of Service limiting Defendant’s liability for damages caused by
error.
On July 2, 2018, Defendants filed a limited motion for summary judgment on the grounds
that both of Ms. Hill’s claims are contractually barred (“First MSJ”), with a Statement of
Undisputed Material Facts (“First SOMF”). On July 16, Ms. Hill filed her opposition (“First
Opp.”). On July 23, Defendants filed a reply (“First Reply”).
On August 31, Defendants filed a broader motion for summary judgment on additional
grounds, including lack of a duty to provide error-free captions, lack of any defamatory meaning,
lack of proximate cause, and failure to mitigate damages. On September 14, Ms. Hill filed her
opposition (“Second Opp.”). On September 21, Defendants filed their reply.
On December 31, 2018, Defendants filed a motion to continue the pretrial conference
scheduled for January 29. On January 2, Ms. Hill filed her opposition.
n.

SUMMARY JUDGMENT STANDARD
Rule 56(a) provides in relevant part, “The court shall grant summary judgment if the

movant shows that there is no genuine dispute as to any material fact and the movant is entitled
to judgment as a matter of law.”
Summary judgment “is properly regarded not as a disfavored procedural shortcut, but
rather as an integral part of the [Superior Court rules] as a whole, which are designed to secure
the just, speedy and inexpensive determination of every action.” Mixon v. Washington
Metropolitan Area Transit Authority, 959 A.2d 55, 58 (D.C. 2008) (quotations and citations

2

omitted). “Summary judgment may have once been considered an extreme remedy, but that is
no longer the case,” and indeed District of Columbia courts have “recognized that summary
judgment is vital.” Doe v. Safeway, Inc., 88 A.3d 131,133 (D.C. 2014) (citations omitted).
The moving party has the burden to establish that there is no genuine issue of material
fact and that it is entitled to judgment as a matter of law. See Osbourne v. Capital City Mortgage
Corp., 667 A.2d 1321,1324 (D.C. 1995). “At this initial stage, the movant must inform the trial
court of the basis for the motion and identify ‘those portions of the pleadings, depositions,
answers to interrogatories, and admissions on file, together with the affidavits, if any, which it
believes demonstrate the absence of a genuine issue of material fact.’” Paul v. Howard
University, 754 A.2d 297, 305 (D.C. 2000) (quoting Celotex Corp. v. Catrett, All U.S. 317, 323
(1986)). Rule 56(c) sets forth the requirements for establishing facts in a form that would be
admissible in evidence at trial.
If the moving party carries this burden, the burden shifts to the non-moving party to show
the existence of an issue of material fact. Smith v. Swick & Shapiro, P.C., 15 A.3d 898, 901
(D.C. 2013). “A genuine issue of material fact exists if the record contains some significant
probative evidence ... so that a reasonable fact-finder would return a verdict for the non-moving
party.” Brown v. 1301 K Street Limited Partnership, 31 A.3d 902, 908 (D.C. 2011) (quotation
and citation omitted). “[T]he mere existence of a scintilla of evidence in support of the
plaintiff s position will be insufficient to defeat a motion for summary judgment.” Smith, 15
A.3d at 902 (quotation and citation omitted). In addition, a party “cannot stave off the entry of
summary judgment through [mjere conclusory allegations.” Smith, 15 A.3d at 902 (quotation and
citation omitted). Likewise, the non-moving party’s “mere speculations are insufficient to create
a genuine issue of fact and thus withstand summary judgment.” Hunt v. District of Columbia, 66

3

j

!
f

A.3d 987, 990 (D.C. 2013) (quotation and citation omitted). Rather, the “party opposing
summary judgment must set forth by affidavit or in similar sworn fashion specific facts showing
I

that there is a genuine issue for trial.” Wallace v. Eckert, Seamans, Cherin & Mellott, LLC, 57
A.3d 943, 950-51 (D.C. 2012) (quotation and citation omitted). Rule 56(c) establishes the
requirements for raising a genuine factual dispute in a form that would be admissible in evidence
at trial.
Viewing the non-moving party’s evidence in the light most favorable to it, the Court must
decide whether “the evidence presents a sufficient disagreement to require submission to a jury
or whether it is so one-sided that one party must prevail as a matter of law.” Hunt, 66 A.3d at
990 (quotation and citation omitted). The Court may grant summary judgment only if no
reasonable juror could find for the non-moving party as a matter of law. Biratu v. BT Vermont
Avenue, LLC, 962 A.2d 261,263 (D.C. 2008). The Court cannot “resolve issues of fact or weigh
evidence at the summary judgment stage.” Barrett v. Covington & Burling, LLP, 979 A.2d
1239, 1244 (D.C. 2009).
Rule 56(d) provides, “If a nonmovant shows by affidavit or declaration that, for specified
reasons, it cannot present facts essential to justify its opposition, the court may: (1) defer
considering the motion or deny it; (2) allow time to obtain affidavits or declarations or to take
discovery; or (3) issue any other appropriate order.” To get relief under Rule 56(d), the non­
moving party must actually file an affidavit or declaration. Kibunja v. Alturas, L.L.C., 856 A.2d
1120,1125-26 (D.C. 2004) (failure to file affidavit required by Rule 56 waives claim that trial
court should have deferred ruling to allow further discovery). The Court has discretion under
this Rule not to authorize additional discovery. See Drake v. McNair, 993 A.2d 607, 617 n. 15
(D.C. 2010). “To invoke the protection of Rule 56 ([d]), a party must have been diligent in

4

pursuing discovery before the summary judgment motion was made.” Travelers Indemnity Co.
v. United Food & Commercial Workers Int’l Union, 770 A.2d 978, 993 (D.C. 2001).
m.

DISCUSSION
The Court grants summary judgment to Defendants because the provisions in the Terms

of Service that bar Ms. Hill’s claims are enforceable. The Court therefore need not reach the
arguments in Defendants’ second summary judgment motion, which it denies as moot. With the
grant of summary judgment, the Court denies as moot Defendants’ motion to continue the
pretrial conference, which is cancelled.
A.

Facts

Through evidence that meets the standards of Rule 56(c), Defendants establish the
following facts:
1.

Ms. Hill created a YouTube account on October 10,2009. See First SOMF f 1.

2.

YouTube has Terms of Service (“Terms of Service”). See First SOMF ^ 3.

3.

The Terms of Service include a warranty-disclaimer clause in which YouTube in

capital letters disclaims any express or implied warranties for its service and “ASSUMES NO
LIABILITY OR RESONSIBILITY FOR (I) ERRORS, MISTAKES, OR INACCURACIES OF
CONTENT ... AND/OR (V) ANY ERRORS OR OMISSIONS IN ANY CONTENT OR FOR
ANY LOSS OR DAMAGE OF ANY KIND INCURRED AS A RESULT OF THE USE OF
ANY CONTENT POSTED, EMAILED, TRANSMITTED, OR OTHERWISE MADE
AVAILABLE VIA THE SERVICES.” See First SOMF f 14.
4.

The Terms of Service include a limitation-of-liability clause providing in capital

letters that YouTube is not liable to users for any “DAMAGES WHATSOEVER RESULTING
FROM ANY (I) ERRORS, MISTAKES, OR INACCURACIES 0F CONTENT ... AND/OR

5

(V) ANY ERRORS OR OMISSIONS IN ANY CONTENT OR FOR ANY LOSS OR
DAMAGE OF ANY KIND INCURRED AS A RESULT OF THE USE OF ANY CONTENT
POSTED, EMAILED, TRANSMITTED, OR OTHERWISE MADE AVAILABLE VIA THE
SERVICES, WHETHER BASED ON WARRANTY, CONTRACT, TORT, OR ANY OTHER
LEGAL THEORY.” See First SOMFf15.
5.

Ms. Hill accepted the Terms of Service in order to create the YouTube account

she needed to upload video content to YouTube. See First SOMF ff 2-3.
6.

Ms. Hill had the option to accept or decline the Terms of Service. See First

SOMF f 4.

7.

Ms. Hill exercised her option to accept the Terms of Service. See First SOMF

8.

Ms. Hill also chose to join the YouTube Partner Program, which enabled her to

15.
l

monetize her uploads and which incorporates the Terms of Service. See First SOMF f7.
i,

9.

When Ms. Hill joined the YouTube Partner Program, she again accepted the

Terms of Service. See First SOMF f 8.
10.

On December 8,2016, Ms. Hill uploaded a video to YouTube using her YouTube

account and YouTube’s automatic captioning software service to; provide captions. See First
SOMF If 9-10.
11.

The Terms of Service provide that by using any broadly defined YouTube

products or services, a user accepts the Terms of Service. See First SOMF ff 11-13.
12.

Ms. Hill graduated from the University of the District of Columbia with a strong

record, and she has experience as a journalist. See First SOMF ff 16-19.

6

Ms. Hill does not dispute any of these facts, except that she asserts that Defendants have
not offered evidence of YouTube’s processes and procedures sufficient to carry their initial
burden under Rule 56. See First Opp. at 5-6. The Mansfield Declaration establishes, as Rule
56(c)(4) requires, that Ms. Mansfield made her declaration on personal knowledge, set out facts
that would be admissible in evidence, and is competent to testify;on the matters stated. To create
t

a genuine dispute about these facts, Ms. Hill had the burden to offer contrary evidence that meets
the standards of Rule 56(c), and she did not do so. It is therefore immaterial whether the Court
can take judicial notice of the facts set out in the Mansfield Declaration.
B.

Discovery

Ms. Hill contends that Defendants’ motion is premature because she is entitled first to
l!

conduct discovery. See First Opp. at 8-9. The Court disagrees for two reasons. First, Ms. Hill
has not submitted an affidavit or declaration showing that the lack of discovery prevents her
from presenting facts essential to justify her opposition. See Kibunja, 856 A.2d at 1125-26. If
the non-moving party “merely asserts that she was unable to effectively oppose the summary
judgment motion because she was denied discovery,” summary judgment may be proper. See
Briscoe v. District of Columbia, 62 A.3d 1275, 1280 (D.C. 2013) (quotation, brackets, and
citation omitted). Second, Ms. Hill does not offer a reason to believe that discovery would be
likely to produce admissible evidence sufficient to show that the Terms of Service are
unconscionable.
C.

Unconscionability

The only issue with respect to the warranty-disclaimer and limitation-of-liability
provisions in the Terms of Service is whether they are enforceable. Ms. Hill does not dispute

7

that the plain language of these provisions bars her claims. Rather, she contends that these
provisions are not enforceable because they are unconscionable. The Court concludes otherwise.
For purposes of this motion, the Court assumes without deciding that the Terms of
Service are a contract of adhesion. See Proulx v. 1400 Pennsylvania Avenue, SE, LLC, 2019
D.C. App. LEXIS 12, at *5 (D.C. Jan. 10,2019) (discussing the Characteristics of a contract of
adhesion). A contract of adhesion is enforceable unless unconscionability or another factor
makes it unenforceable, and the party claiming unconscionability “must prove not only that one
of the parties lacked a meaningful choice but also that the terms of the contract are unreasonably
favorable to the other party.” Riggs National Bank of Washington, D. C. v. District of Columbia,
581 A.2d 1229,1251 (D.C. 1990); Smith, Bucklin & Associates v. Sonntag, 83 F.3d 476, 480
*

(D.C. Cir. 1996) (as a general rule, “contract of adhesion is fully jenforceable according to its
terms,” unless an exception like unconscionability applies). “Under D.C. law, a court can void a
contract on the grounds that it is unconscionable if the party seeking to avoid the contract proves
that the contract was both procedurally and substantively unconscionable.” Fox v. Computer
World Services Corp., 920 F. Supp. 2d 90, 97 (D.D.C. 2013) (citing Urban Investors, Inc. v.
Branham, 464 A.2d 93, 99 (D.C. 1983)). “Thus a contract may be unconscionable either
because of the manner in which it was made or because of the substantive terms of the contract
or, more frequently, because of a combination of both.” Urban investors, 464 A.2d at 99
(quotation and citation omitted).
The Court agrees with the analysis in SongFi.Inc. v. Google Inc., 12 F. Supp. 3d 53,6164 (D.D.C. 2014), that the Terms of Service are not unconscionable: “there was no procedural
unconscionability where the conditions for use of YouTube’s service were not obscured or
hidden, Plaintiffs had a clear opportunity to understand the terms, and they did not lack a

8

meaningful choice;” and the Terms of Service, individually and Collectively, are not “so
outrageously unfair as to shock the judicial conscience.” The warranty-disclaimer and
limitation-of-liability provisions are clear and unambiguous, and'Ms. Hill is an educated person
who had the ability and opportunity to decide whether to accept the Terms of Service. Ms.
Smith could have created her own website to disseminate her content, and she could and did use
other video-sharing websites. See First MSJ at 14-15. The same popularity that attracted Ms.
Hill to its services also makes it impracticable for YouTube to negotiate on a user-by-user basis
any limitations on liability - and makes occasional errors inevitable. Ms. Hill concedes that
Defendants did not promise her “error free closed captioning services” and that errors are
foreseeable, but she proposes to draw a line between errors that are defamatory or insulting and
i-

errors. See Second Opp. at 12. However, this line is unworkable, and Ms. Hill does not
demonstrate that it was unreasonable for Defendants to protect themselves from liability for the
kind of inadvertent and isolated transcription error alleged by Ms. Hill.
The result is the same under District of Columbia and California law. Ms. Hill does not
demonstrate that any substantive difference exists between the law in these two jurisdictions that
is material to this case. See Riggs National Bank, 581 A.2d at 1251 (following California law);
First MSJ at 20; First Reply at 10-16.
IV.

CONCLUSION
Accordingly, the Court orders that:
1.

Defendants’ July 2,2018 limited motion for sumihary judgment is granted.

2.

Defendants’ August 31,2018 motion for summary judgment is denied as moot.

3.

The pretrial conference scheduled for January 29, (2019 is canceled.

4.

Defendants’ motion to continue the pretrial conference is denied as moot.

9

CL
l

:
i

!;

Date: January 16,2019
Copies to:

•*:
i•i
!

Christopher G. Waldron:i
Counselfor Plaintiff ;
Roy L. Austin, Jr.
Jack Mellyn
Kristin J. Sourbeer
Counselfor Defendants

\
!

!

10

Anthony C. Epstein
Judge

